WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-74

United States

v.

Image Processing Technologies LLC, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Amgen Inc. and Amgen Manufacturing Limited

I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

August 25, 2020

(Type or print) Name

Arlene L. Chow
Mr. 0 Ms.

Firm

❑ Miss

Latham & Watkins LLP

Address

885 Third Avenue

City & State
Phone

❑ Mrs.

New York, NY

(212) 906-1290

Zip
Email

10022

arlene.chow@lw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jeffrey B. Wall, Acting Solicitor General

RECEIVED
AUG 2 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

